                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL                   I

                                                     OFFICE OF MVESTIGATIONS

                                            CLOSEOUT MEMORANDUM
                                                                                                 t




Case Number: I03110049                                                                       pag: 1 of 1       I
                                                                                                     I


         The National Science Foundation (NSF) Office of Inspector General (OIG) selected this award as
         part of a review of conferences, workshops and symposia with respect to compliance with
         program income requirement. The award provided funds for a two-day workshop. The keview
         revealed that cost charged to the grant included a 4-day trip to Hawaii by the Principal
         Investigator (PI) 6 months after the workshop.

         NSFIOIG requested that the university1provide us with financial information, supporting
         documentation and justification regarding the use of award funds for travel to Hawaii. The
         University provided all financial information as well as justification for the trip to Hawaii.
         According to the PI, the trip to Hawaii was for participation in a meeting to answer questions that
         were addressed in the white paper report that was to be submitted to NSF as part of the award.

         We contacted the Program Officer (PO) and informed her of the PI'S explanation for the trip, and
         asked if she had authorized the travel. The PO advised that she did not recall whether she gave
         prior approval for the trip, however upon receiving recent information she felt that the response
         was adequate and justified.                                                                     I




         The University provided all necessary finmcial documents and adequate explanations for the use        11
         of funds. Accordingly, this case is closed.




         ' Footnote redacted
                                                                                                               '1
NSF OIG Form 2 (11/02)
